     Department of Homeland Security





    FEMA Public Assistance Grant Funds Awarded to City 

          of Orlando, Florida - Hurricane Jeanne 





DA-12-11                                      February 2012

                                                                             Office o/Inspector General

                                                                             U.S. Department of Homeland Security
                                                                             Washington, DC 20528




                                                                              Homeland
                                                                              Security
                                                 FEB 2 2 2012

MEMORANDUM FOR:                         Major P. (Phil) May
                                        ~onal A4ministrator, Region IV
                           ~            F:~al Z§"~e~ Manj'llement Agency
F R O M : ' · "'--,'D.                     Mflaef,:a:~
                    Assistant Inspector cieneral
                    Office of Emergency Management Oversight

SUBJECT:                                FEMA Public Assistance Grant Funds Awarded to
                                        City of Orlando, Florida - Hurricane Jeanne
                                        FEMA Disaster Number 1561-DR-FL
                                        Audit Report Number DA-12-11

We audited public assistance funds awarded to the City of Orlando, Florida (City) (FIPS Code
095-53000-00). Our objective was to determine whether the City accounted for and expended
Federal Emergency Management Agency (FEMA) grant funds according to federal regulations
and FEMA guidelines.

As of February 1, 2011, the City received an award of $9.9 million from the Florida Division of
Emergency Management (State), a FEMA grantee, for damages resulting from Hurricane Jeanne,
which occurred in September 2004. The award provided 90% FEMA funding for debris removal
activities, emergency protective measures, and permanent repairs to buildings and facilities. The
award consisted of 18 large projects and 38 small projects. l

Our review focused primarily on $4.3 million awarded under four large projects (see Exhibit,
Schedule of Projects Audited). We also performed a limited review of several small projects for
project implementation and insurance coverage, which are identified in the body of this report.
The audit covered the period September 24,2004, to August 19,2011, during which the City
received $3.9 million of FEMA funds. At the time of our audit, the City had not submitted final
claims on all project expenditures to the State.

We conducted this performance audit pursuant to the Inspector General Act of 1978, as
amended, and according to generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based upon our audit objective. We believe

1   Federal regulations in effect at the time of the disaster set the large project threshold at $54,100.
that the evidence obtained provides a reasonable basis for our findings and conclusions based
upon our audit objective. We conducted this audit applying the statutes, regulations, and FEMA
policies and guidelines in effect at the time of the disaster.

We judgmentally selected project costs (generally based on dollar value); interviewed City,
State, and FEMA personnel; reviewed the City’s procurement policies and procedures; reviewed
applicable federal regulations and FEMA guidelines; and performed other procedures considered
necessary to accomplish our audit objective. We did not assess the adequacy of the City’s
internal controls applicable to its grant activities because it was not necessary to accomplish our
audit objective. However, we gained an understanding of the City’s method of accounting for
disaster-related costs and its policies and procedures for administering the activities provided for
under the FEMA award.


                                     RESULTS OF AUDIT

The City generally accounted for and expended FEMA funds according to federal regulations
and FEMA guidelines. However, we identified $51,951 (federal share $46,756) of costs that
should be disallowed by FEMA because they are for losses covered by insurance.

Section 312 of the Robert T. Stafford Disaster Relief and Emergency Assistance Act, as
amended, prohibits the use of public assistance funds for damages covered by insurance. The
City claimed $51,951 under nine small projects to repair public buildings and park and
recreational facilities. We reviewed the City’s insurance policy, which included a detailed
Schedule of Properties insured. The Schedule identified the location, building number, address,
occupancy, construction structure, and building and personal limit coverage for insured facilities.
Using this information and scopes of work authorized on individual project worksheets, we
identified $51,951 of costs claimed for activities covered under the insurance policy. Therefore,
we question the $51,951 of costs covered by insurance, as shown in table 1 below.

                        Table 1: Project Costs Covered by Insurance
                   Category                Project       Amount                Amount
                   Of Work                 Number        Claimed              Questioned
        Public Buildings                         213         $ 1,121               $ 1,121
        Public Buildings                         620           2,796                 2,796
        Public Buildings                        3206           3,974                 3,974
        Public Buildings                        4001           2,563                 2,563
        Public Buildings                        5202           5,235                 5,235
        Park & Recreational Facilities          4106          22,332                22,332
        Park & Recreational Facilities          4827           1,500                 1,500
        Park & Recreational Facilities          5302           2,282                 2,282
        Park & Recreational Facilities          5310          10,148                10,148
                     Total                      Total       $51,951               $51,951




                                                 2

                                   RECOMMENDATION


We recommend that the Regional Administrator, FEMA Region IV:

   Recommendation #1: Disallow $51,951 (federal share $46,756) of ineligible costs
   questioned because they are for losses covered by insurance.


            DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

We discussed the audit results with City, State, and FEMA officials during our audit. We also
provided a written summary of our finding and recommendation in advance to these officials and
discussed them at the exit conference held on September 21, 2011. City officials withheld
comments pending receipt of the report.

Within 90 days of the date of this memorandum, please provide our office with a written
response that includes your (1) agreement or disagreement, (2) corrective action plan, and
(3) target completion date for each recommendation. Also, please include responsible parties
and any other supporting documentation necessary to inform us about the current status of the
recommendation. Until your response is received and evaluated, the recommendations will be
considered open and unresolved.

Consistent with our responsibility under the Inspector General Act, we are providing copies of
our report to appropriate congressional committees with oversight and appropriation
responsibility over the Department of Homeland Security. To promote transparency, this report
will be posted to our website, with the exception of sensitive information identified by your
office. Significant contributors to this report were David Kimble, Felipe Pubillones,
Salvador Maldonado-Avila, Larry Jones, and Angelica Esquerdo.

Should you have questions concerning this report, please contact me at (202) 254-4100 or
David Kimble at (404) 832-6702.

cc: Administrator, FEMA
    Audit Liaison, FEMA Florida Recovery Office
    Audit Liaison, FEMA Region IV
    Audit Liaison, FEMA (Job Code G-11-027)
    Audit Liaison, DHS




                                               3

                                                                           EXHIBIT

                       Schedule of Projects Audited 

                  September 24, 2004, to August 19, 2011 

                         City of Orlando, Florida 

                   FEMA Disaster Number DR-1561-FL 



   Project              Amount                Amount           Amount
   Number               Awarded          Claimed/Reviewed     Questioned
Large Projects:
    1796                   $1,489,686           $1,489,686       $     0
    5220                    1,955,355            1,955,355             0
    5245                      791,963              791,963             0
    3983                      122,812              122,812             0
   Subtotal                $4,359,816           $4,359,816             0
Small Projects:
     213                       $ 1,121              $ 1,121        1,121
     620                         2,796                2,796        2,796
    3206                         3,974                3,974        3,974
    4001                         2,563                2,563        2,563
    5202                         5,235                5,235        5,235
    4106                        22,332               22,332       22,332
    4827                         1,500                1,500        1,500
    5302                         2,282                2,282        2,282
    5310                        10,148               10,148       10,148
    Subtotal                  $51,951              $51,951       $51,951
Total                      $4,411,767           $4,411,767       $51,951




                                    4

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
